                    U.S. Department of Agriculture
                       Office of Inspector General




USDA’s Management and Security Over
     Wireless Handheld Devices




                              Audit Report 50501-01-IT
                                           August 2011
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250




DATE:          August 15, 2011

AUDIT
NUMBER:        50501-01-IT

TO:            Christopher L. Smith
               Chief Information Officer
               Office of the Chief Information Officer
               ATTN: Sherry Linkins

               Edward Knipling
               Administrator
               Agricultural Research Service
               ATTN: Michelle Garner

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                for Audit

SUBJECT:       USDA’s Management and Security Over Wireless Handheld Devices


The report presents the results of our audit of the management and security over wireless
handheld devices. The response from the Office of the Chief Information Officer, which
incorporates Agricultural Research Service’s position, is included in its entirety in an exhibit in
this report. We accept management decision for Recommendations 1 through 5, all of the
recommendations in the subject audit.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background & Objectives .......................................................................................3
   Background ...........................................................................................................3
   Objectives ..............................................................................................................4
Section 1: Security of Wireless Handheld Devices...............................................5
   Finding 1: USDA Needs to Secure its Wireless Handheld Devices.................5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................8
   Finding 2: USDA Needs to Better Coordinate How its TMACOs Manage
   Their Agencies’ Handheld Wireless Devices .....................................................8
         Recommendation 3 ......................................................................................10
         Recommendation 4 ......................................................................................11
         Recommendation 5 ......................................................................................11
Scope and Methodology.........................................................................................12
Abbreviations .........................................................................................................14
Exhibit A: Testing Locations ................................................................................15
Agency’s Response .................................................................................................16
USDA’s Management and Security Over Wireless Handheld

Executive Summary

Like other Federal departments, the Department of Agriculture (USDA) increasingly relies on
smartphones and other handheld wireless devices to conduct its day-to-day business. These
devices are small, inexpensive, and powerful, but their portability poses new security risks for
Federal agencies. Since smartphones can be easily lost or stolen, misplaced devices could be
used to access, and potentially abuse, private or classified information. Given concerns about the
security of USDA’s smartphones and other wireless handheld devices, the Office of Inspector
General (OIG) initiated this audit to evaluate USDA’s management and implementation of
security measures over the use of mobile handheld device technology.

Of approximately 10,000 wireless handheld devices USDA uses, we selected 277 devices at the
Agricultural Research Service (ARS), the Animal and Plant Health Inspection Service, the Food
and Nutrition Service, the Forest Service, the National Agricultural Statistics Service, and the
Office of the Chief Information Officer (OCIO).1 We found that these 277 devices were not
adequately secured, as defined by guidance issued by the National Institute of Standards and
Technology (NIST).2 For example, we found wireless handheld devices that were not password-
protected, that had no anti-virus software installed, and that were not configured to encrypt
removable media, among other deficiencies.3 We also found that all 22 of the Department’s
Blackberry servers were not secured in accordance with Departmental guidance, and thus
allowed users to disable their passwords or bypass the Department’s internet content filters.4

Ultimately, these problems occurred because USDA chose to deploy wireless handheld devices
using a decentralized approach, but did not provide its agencies with clear guidance on how they
were to configure their devices and servers. The Departmental website for policies and
procedures listed ten documents pertaining to wireless handheld devices, but eight documents
were expired and another had been superseded. Moreover, none of these documents provided
NIST-compliant security configurations for the various types of devices deployed throughout the
Department.

In short, OIG found that USDA allowed these devices to proliferate throughout its agencies
without establishing the guidance necessary to ensure that all agencies secured the information
employees would access with these devices. Without a more centralized approach for
configuring and securing these devices, USDA’s data are at risk of theft, inadvertent disclosure,
or manipulation.


1
  In order to select these 277 phones, we first selected 40 sites where there were particularly high concentrations of
wireless devices. When we visited, we reviewed the phones that were present.
2
  NIST Special Publication 800-124, Guidelines on Cell Phone and Personal Digital Assistant (PDA) Security,
October 2008.
3
  Removable media refers to storage media which are designed to be removed from the device without powering it
off. Such media are small and easily lost or stolen if removed from the device.
4
  OCIO, Baseline Configuration Standard, BlackBerry Enterprise Server Security Guide, Revision: 1.1, dated
October 24, 2007.

Audit Report 50501-01-IT                                                                                          1
USDA does require its agencies to establish a telecommunications management program charged
with responsibilities such as inventorying communications devices and reviewing
telecommunications services and equipment to ensure they are supported by documented
business need. The program is also responsible for maintaining cost-benefit analyses and all
other documentation pertinent to the agency’s decision for implementing telecommunications
services and equipment and ensuring the most cost-effective solution for program delivery and
agency compliance with USDA standards. The positions that perform these functions are known
as Telecommunications Mission Area Control Officers (TMACO).

We found, however, that the agencies did not emphasize the responsibilities corresponding to
these positions, and did not adequately train their TMACOs. These problems occurred because
the Department did not provide adequate policies and procedures that included detailed roles and
responsibilities for the TMACO position. Because there was not adequate guidance, TMACOs
working for several agencies did not take steps to realize rate savings in how their agencies used
handheld wireless devices, inventory their devices, or instruct their agencies’ employees in how
to properly use the devices.

The Department took action during the audit and issued policies that adequately addressed our
concerns regarding the management of wireless devices and the roles and responsibilities of the
TMACOs. Based on our review of the revised policies, we have modified our recommendations
accordingly.

OIG concluded that USDA needs to take steps to secure the approximately 10,000 handheld
wireless devices its employees currently use to accomplish their day-to-day business.

Recommendation Summary
In this report, we have issued five recommendations, four to OCIO and one to ARS to strengthen
management controls. We recommended that OCIO develop NIST-compliant configuration
guides for all approved wireless handheld device and server types and monitor agencies for
compliance; work with telecommunication vendors to develop and implement an electronic
billing process; and develop a centralized Departmental system to capture all pertinent data for
all handheld devices, such as user, phone number, make, model, device operating system, and
current software level. We also made a specific recommendation to ARS to centralize its
acquisitions and security over its wireless handheld devices.

Agency Response
OCIO generally concurred with the recommendations and ARS concurred with the
recommendation specific to the agency. OCIO incorporated ARS’ position into one response.
We have included the response in its entirety at the end of this report.

OIG Position
We accept management decision for all 5 recommendations presented in this report.

Audit Report 50501-01-IT                                                                     2
Background & Objectives

Background

Cell phones and personal digital assistants have become indispensable tools for today’s highly
mobile workforce. Small and relatively inexpensive, these devices can be used not only for
voice calls, simple text messages, and personal information management (e.g., phonebook,
calendar, and notepad), but also for many functions performed at a personal computer, including
sending and receiving email, browsing the internet, storing and modifying documents, delivering
presentations, and remotely accessing data. While these devices provide productivity benefits,
they also pose new security risks. Because of their small size and use outside the office,
handheld devices are easier to misplace or have stolen than a notebook computer. If one of these
devices is compromised, it is possible to gain access to the information stored on the device or
the information the device is capable of accessing remotely.

USDA has adopted a decentralized approach to deploying wireless handheld devices—each
agency is allowed to purchase devices to meet its own business needs. We found approximately
10,000 wireless handheld devices within the Department, including almost every brand and type
available, though most were Blackberry smartphones. Each agency followed its own procedures
for deploying the devices and implemented various levels of security.

Each agency also designates a Telecommunications Mission Area Control Officer (TMACO)
who serves as the USDA agency or mission area representative on telecommunications matters,
and approves orders for all telecommunications circuits, services, and equipment. The TMACO
is the responsible source of technical expertise with regard to all telecommunications issues,
specializing in the development, implementation, and maintenance of efficient, cost-effective
telecommunications solutions.

Departmental Regulation (DR) 3300-001, Appendix B and C, Telecommunication and Internet
Services and Use, dated March 23, 1999, requires agency and staff office managers to (1)
establish internal procedures to determine the risk of, and vulnerability to, telecommunication
fraud, waste, and abuse on their networks; (2) implement cost-effective actions to minimize their
exposure to telecommunication fraud, waste, and abuse; (3) educate employees on telephone
fraud, waste, and abuse; and (4) mitigate risks of telecommunication fraud, waste, and abuse to
their systems and networks.

DR 3505-002, Appendix C, Wireless Networking Security Policy, dated August 11, 2009,
requires agencies to ensure that all wireless network devices are configured in
accordance with applicable Federal Information Processing Standards and NIST Special
Publications (SP) standards.

NIST outlines many guidelines and requirements for agencies to follow as they deploy wireless
equipment to their employees. NIST security practices require:

   ·   the identification of an organization’s information system assets and the development,
       documentation, and implementation of policies, procedures, and guidelines.

Audit Report 50501-01-IT                                                                    3
   ·   that products of this type (smartphones and other wireless handheld devices) be checked
       for compliance with organizational encryption policies.
   ·   interfaces and unneeded features be turned off until they are needed.
   ·   devices be centrally managed to simplify the configuration control and management
       processes needed to ensure compliance with the organization’s mobile device security
       policy. Agencies should be able to remotely erase, disable, or lock a device in the event
       it is lost or stolen.

Objectives

The objective of this audit was to evaluate the management and implementation of security
measures over the use of mobile handheld device technology within the Department.




Audit Report 50501-01-IT                                                                    4
Section 1: Security of Wireless Handheld Devices

Finding 1: USDA Needs to Secure its Wireless Handheld Devices

Of USDA’s approximately 10,000 wireless handheld devices, we found that all 277 of those
selected and tested were not adequately secured according to NIST standards.5 Ultimately, these
devices were not secured because USDA allowed its agencies to deploy them using a
decentralized approach—essentially, permitting the agencies to purchase and use the devices
they felt they needed—but did not provide the agencies with clear guidance on how to configure
and use their devices securely. Unless the Department and its agencies take adequate steps to
secure these devices, sensitive USDA data are at risk of theft, inadvertent disclosure, or
manipulation.

NIST requires that organizations centrally manage their devices to simplify the configuration,
control, and management processes needed to ensure compliance with the organization’s mobile
device security policy. NIST also requires that organizations inventory wireless handheld
devices, conduct assessments of the risks to their devices, encrypt data on the device, install anti-
virus software on the devices, use strong passwords to protect the devices, and back up any data
stored on the devices.6 According to the Office of Management and Budget (OMB), Federal
organizations are required to comply with NIST guidance.7

We found, however, that all 277 devices we tested in 40 locations did not meet NIST standards.8
Among the many deficiencies we found, 168 of these devices did not have adequate passwords,
or had no passwords at all; 259 devices had no anti-virus software installed; and 139 were not
configured to encrypt removable media.9 If these devices were lost or stolen, potentially
sensitive Government information would be easily accessible.

We also found systemic security problems with all 22 Blackberry servers the Department uses to
control the approximately 10,000 devices. USDA issued the Blackberry Enterprise Server
Security Guide, which recommended 228 settings that should be put in place on a Blackberry
server to enhance security and make it more difficult for sensitive data to be compromised in the
event the device is lost or stolen. However, we found that nearly 90 percent of the server settings
deployed were not set in accordance with the Department’s security guide. None of the deployed
servers were entirely compliant with the security guide, nor did we find waivers for any
noncompliant settings.

These systemic problems meant that USDA employees were able to use their devices for
purposes that could compromise the security of the devices. For example, we found that five

5
  NIST SP 800-124, Guidelines on Cell Phone and PDA Security, dated October 2008; and OCIO, Baseline
Configuration Standard, BlackBerry Enterprise Server Security Guide, Revision: 1.1, dated October 24, 2007.
6
  Ibid.
7
  OMB A-130, Management of Federal Information Systems, dated November 11, 2000.
8
  See Exhibit A for listing of test locations.
9
  Removable media refers to storage media which are designed to be removed from the device without powering it
off. Such media are small and easily lost or stolen if removed from the device.

Audit Report 50501-01-IT                                                                                  5
users were using a university system for their Government email, which allows potentially
sensitive Government email to reside on non-Government servers. Other users were receiving
non-Government email on their devices, which could allow potentially harmful and malicious
software to be inadvertently loaded onto Government devices. Some users were browsing
prohibited internet sites, including a gentlemen’s club site, a fantasy sports site, and a social
media site.

Ultimately, these problems occurred because USDA chose to deploy these wireless handheld
devices in its various agencies using a decentralized approach—agencies were allowed to
purchase, configure, and use whatever smartphones or other devices they decided would be most
conducive to their work—but did not provide the agencies with clear guidance on how to
adequately and securely configure these devices. NIST guidelines require that organizations
centrally manage their devices, since central management can provide significant security
benefits.10 For example, centrally managed phones could be inventoried, remotely “wiped” if
stolen or lost, and have new patches installed and secure settings deployed when threats
change.11 Without a centrally managed solution, USDA is experiencing great discrepancies in
how its agencies deploy handheld wireless devices. We found, for instance, that one agency
deployed a version of iPhone with no security settings enabled.

Additionally, OIG maintains that USDA needs a more centralized approach to its wireless
handheld devices, if only so that it can accurately inventory the devices it deploys. When we
began this audit, the Department was unable to provide a listing of all wireless handheld devices
it deployed, and referred us to the agencies, not all of whom were able to provide an accurate
listing. One agency took more than 2 months to provide its inventory because it had
decentralized its own deployment of these devices and had not consolidated its inventory.

To meet NIST standards, OIG believes the most direct route to secure wireless handheld devices
is to centrally manage them. Additionally, USDA should consolidate and improve the guidance
it provides its information technology employees. In the past, USDA has provided guidance that
was not clear regarding how agencies should secure their wireless handheld devices. NIST
requires that Departments and agencies create policies and procedures on key aspects of security
and management over wireless handheld devices.12 Of the ten documents pertaining to wireless
handheld devices that USDA published on its Departmental policies and procedures website, we
found that nine were superseded or expired. Nevertheless, we found agencies using the
superseded and the expired policies and procedures.13

Based on our review of these ten documents, USDA’s available guidance does not meet NIST
requirements because it does not provide security settings for all the types of devices deployed

10
   NIST SP 800-124, Guidelines on Cell Phone and PDA Security, dated October 2008; and OCIO, Baseline
Configuration Standard, BlackBerry Enterprise Server Security Guide, Revision: 1.1, dated October 24, 2007.
11
   Remote wiping entails sending a signal to the sensitive Government information.
12
   NIST SP 800-124, device which completely obliterates all data on the device. This keeps lost or stolen phones
from disclosing Guidelines on Cell Phone and PDA Security, dated October 2008; and OCIO, Baseline
Configuration Standard, BlackBerry Enterprise Server Security Guide, Revision: 1.1, dated October 24, 2007.
13
   During the course of this audit, the Office of the Chief Information Officer removed all expired and superseded
Departmental guidance from the website, and the Department began drafting new operational policies for wireless
handheld devices. However, security issues were not addressed in the new operational policies.

Audit Report 50501-01-IT                                                                                      6
by the agencies. At present, USDA is using Blackberry Enterprise Servers, Windows Mobile,
and other enterprise solutions and servers, but the Department has no security configuration
guides for these applications.

Even when the Department did provide guidance, it often prescribed security settings that were
less than optimal. Although encryption is an essential means of protecting data on a mobile
device if it becomes lost or stolen, OCIO provided guidance that did not mention any
recommended settings for data encryption either for the device or for any associated external
media (such as memory cards).

Overall, we concluded that USDA needs to take steps to improve the security of its wireless
handheld devices. The Department should begin by centralizing how its agencies configure and
deploy their wireless handheld devices; at a minimum, the Department must provide its agencies
with clear, NIST-compliant guidance on how to configure all devices they are using. Given the
seriousness of the problems we have found with USDA’s security over wireless handheld
devices, and the fact that these problems are pervasive in so many different agencies, we are also
recommending that USDA monitor its application of these enhanced security procedures.

During the course of the audit, the Department issued a detailed policy establishing the
requirements for planning and managing wireless technologies, centralizing acquisition, and
addressing roles and responsibilities that cover several issues noted in this report. 14 Therefore,
we will not be making recommendations concerning those issues that were adequately covered in
the policy.

Recommendation 1
Develop NIST-compliant configuration guides for all approved wireless handheld device and
server types. Require agencies to document reasons for any deviations.

Agency Response
OCIO concurs with this recommendation. OCIO has drafted a new Departmental Regulation,
Secure Configuration Management Policy, based on NIST guidance. This new Departmental
Regulation requires the use of Federal Government issued (e.g., NIST) secure configuration
guides for all information technology devices used in USDA and the formal documentation of all
deviations. OCIO anticipates the publication of the new regulation by March 31, 2012.

OIG Position
OIG concurs with the management decision. OCIO has taken interim action to address this
recommendation. OCIO issued instructions, effective May 26, 2011, requiring all agencies to
comply with the NIST configuration guidelines.




14
  Departmental Manual (DM) 3500-005, Policies for Planning and Managing Wireless Technologies in USDA,
dated November 10, 2010.

Audit Report 50501-01-IT                                                                             7
Recommendation 2

Develop and implement a process to monitor wireless handheld device and server configuration
settings to ensure they meet NIST requirements.

Agency Response
OCIO concurs with this recommendation and has drafted a new Departmental Manual (DM),
USDA Secure Configuration Management Procedures; expected publication is March 31, 2012.

OIG Position
OIG concurs with the management decision. OCIO issued instructions, effective May 26, 2011,
requiring all agencies to comply with the NIST configuration guidelines.

Finding 2: USDA Needs to Better Coordinate How its TMACOs Manage
Their Agencies’ Handheld Wireless Devices

Of the 26 TMACOs working for USDA, we reviewed 6 and found that none were adequately
managing and controlling how employees in their agencies used their wireless handheld
devices.15 Not all agencies had full-time TMACOs; some agencies had not granted their
TMACOs the authority necessary to carry out their duties; and other agencies had not trained
their TMACOs. These problems occurred because the Department did not centralize and
coordinate the work these employees were supposed to be performing. Without greater
coordination of agencies’ TMACOs, different USDA agencies placed different emphasis on the
TMACOs’ roles and responsibilities, which resulted in USDA agencies not paying the lowest
possible rates for their handheld devices, not being able to provide inventories of their devices,
and not instructing employees in how they should use the devices.

USDA requires agencies to establish a telecommunications management program to include
agency-wide and project-level management structures and processes responsible and accountable
for managing, selecting, controlling, and evaluating investments in telecommunications systems.
As part of that program, the TMACO’s role includes validating telecommunication services
(including handheld wireless devices); reviewing telecommunications services and equipment to
ensure they are supported by documented business needs; and completing proper technical
analysis. In addition, they are tasked with maintaining cost-benefit analyses and all other
documentation pertinent to the agency’s decision for implementing telecommunications services
and equipment; and ensuring the most cost-effective solution for program delivery and agency
compliance with USDA standards.16

We found, however, that the TMACOs at the six agencies we reviewed did not have the
resources and the authority they needed to accomplish their duties as required by Departmental
regulations:

15
   The agency TMACO is designated within each mission area/agency and is empowered to control ordering and to
provide oversight when ordering network services.
16
   DR 3300-001, Telecommunication and Internet Services and Use, dated March 23, 1999.

Audit Report 50501-01-IT                                                                                8
       ·     Four did not have policies and procedures in place for their position.
       ·     Three TMACOs’ position descriptions defined their wireless device responsibilities as
             “other duties as assigned.”
       ·     One agency –ARS– had not granted the TMACO the authority and responsibility for
             centralized management of wireless devices.
       ·     Two agencies’ TMACOs were not granted authority by the agency to review
             telecommunication acquisitions.
       ·     Two were not the central point-of-contact for all telecommunication services within the
             agency.
       ·     Six did not maintain appropriate records for telecommunication services and
             justifications for the products acquired.

All of the TMACOs we interviewed stated that they had not received formal training on their
assigned duties and explained that they would benefit from training in their roles and
responsibilities.

One of the various responsibilities assigned to TMACOs, according to Departmental regulations,
is the responsibility of ensuring that the agency is not paying more than it should for
telecommunication services.17 Based on our review of how the six agencies were billed over 3
months, we determined that the TMACOs were not always adequately reviewing their bills. For
example, we found that:

       ·     109 devices had overages totaling $23,823, including one user who had over $1,400 in
             overage charges for a 3-month period while another incurred $975 in text message and
             minute overages during that same period.
       ·     491 devices had no activity (phone or data calls) during at least one billing cycle.
       ·     20 employees at an agency were issued more than one phone.

OIG also noticed that the agencies were receiving most of their bills on paper, which made it
difficult for the TMACOs to review their entire agency’s activity on a monthly basis—one
agency’s monthly bill consisted of more than 2,600 pages. In order for a TMACO to be able to
reasonably review bills of this sort, the agency needs to work with the provider to receive a
consolidated, electronic bill that TMACOs can use to filter and organize the data.

In contrast, one of the agencies we reviewed—the Animal and Plant Health Inspection Service—
did dedicate a TMACO to managing its telecommunications. That TMACO consolidated rate
plans, discontinued unused phones, and lowered the agency’s average service line costs from $71
to $41 per month, saving the agency more than $1.4 million in one year. We maintain that other
agencies with a properly trained TMACO could realize similar types of savings.

OIG also found that, although managing an inventory of wireless devices is one of the
responsibilities that Departmental regulations assign to TMACOs,18 the agencies we reviewed

17
     Ibid.
18
     Ibid.

Audit Report 50501-01-IT                                                                         9
found it difficult to provide inventory information. For example, for one agency to provide us
this information, the agency’s TMACO needed to conduct a data call of all the agency’s
regions—a process that took 2 months.

Even when the six agencies we reviewed were able to produce an inventory, we found that five
of their inventories differed from the lists we developed from information on the Department’s
servers. We also observed other problems, such as blank fields for user names; missing phone
numbers, device types, and operating systems; and phone number fields populated with just the
area code. Four agencies did not identify device make or model for 638 of the inventoried
devices, and one agency had at least 500 unknown device makes and models on its inventory.
Without this critical information being readily available, agencies will find it difficult to
adequately address security incidents involving these wireless handheld devices, or deploy
updates to them.

OIG maintains that TMACOs can provide USDA and its agencies with an important means of
managing their telecommunications usage, particularly for wireless handheld devices. At
present, however, USDA agencies are not fully utilizing this resource. USDA needs to take steps
to ensure that the agencies are fully and consistently using these staff positions to comply with
Departmental regulations.

During the course of this audit, the Department issued a detailed policy establishing the TMACO
position, including roles and responsibilities, training, and certification that covers the issues
noted in this report.19 Based on our review of the revised policy, we modified our
recommendations.

Recommendation 3

Work with telecommunication vendors to develop and implement an electronic billing process
that would allow conversion to commercially available software so that TMACOs can more
easily review all bills on a monthly basis. Once in electronic format both the agency and
Department should develop standard queries for detecting fraud and waste.

Agency Response
OCIO concurs with this recommendation. DM 3300-005, Policies for Planning and Managing
Wireless Technologies in USDA, November 10, 2010, addresses program requirements for the
financial management of wireless communications equipment and billing. There is a current
wireless billing online process that was put in place in 2009. Wireless bills are scanned by the
National Finance Center (NFC), placed into a repository in St. Louis and reviewed and accessed
by the TMACOs. In January 2011, OCIO started developing a replacement for the current
online process; which will be announced via memo to the agencies as soon as the procurement is
finalized. Once awarded, the USDA Cellular program will provide a centralized


19
  DR 3300-020, Telecommunications Mission Area Control Officer (TMACO) Roles and Responsibilities, August
30, 2010.

Audit Report 50501-01-IT                                                                            10
Program Office which will oversee the USDA Cellular Service Plans and inventory oversight.
OCIO anticipates the award of a Blanket Purchase Agreement and project completion by
March 31, 2012.

OIG Position
OIG concurs with the management decision.

Recommendation 4

Develop a centralized Departmental system to capture all pertinent data for all handheld devices,
such as user, phone number, make, model, device operating system, and current software level.

Agency Response
OCIO partially agrees with this recommendation. OCIO recognizes USDA has a decentralized
procurement process for handheld devices. In its response, dated June 16, 2011, OCIO stated it
is developing a memorandum explaining the unification of USDA’s Cellular procurement,
pricing, inventory, and management under a single program office within OCIO servicing all
USDA agencies and offices through the General Services Administration and service providers.
OCIO plans to issue this memorandum by July 31, 2011, and anticipates the award and
completion of this project by March 31, 2012.

OIG Position
OIG concurs with this management decision. The contract should include the provision for
consolidating the agency inventories to a Departmentwide inventory.

Recommendation 5

ARS should centralize the acquisition and security over its wireless handheld devices.

Agency Response
ARS concurs with this recommendation. In its response provided to OCIO, June 2, and
subsequent correspondence on July 11, 2011, ARS stated that the agency plans to implement
procedures to manage the acquisition of handheld devices within ARS. Such procedures would
include standardizing all ARS handheld devices, a process, requiring TMACO approved for
handheld purchases, and a process to ensure security policies are installed on handheld devices
prior to deployment. ARS’ OCIO is currently in the process of writing formal Policy and
Procedures for this process, expected completion is first quarter of fiscal year 2012.

OIG Position
OIG concurs with the management decision.

Audit Report 50501-01-IT                                                                   11
Scope and Methodology
Our audit focused on all wireless handheld devices that USDA operated from November 1, 2009,
through April 30, 2010. We defined wireless handheld devices as machines capable of sending
and receiving Government email, accessing the global contacts list, downloading software
applications, and browsing the internet.

From the total population of smartphones USDA operated (approximately 10,000), we selected
sites with the highest concentration of smartphones for detailed field testing. Thus, we reviewed
six agencies: the Agricultural Research Service, the Animal and Plant Health Inspection Service,
the Food and Nutrition Service, the Forest Service, the National Agricultural Statistics Service,
and the Office of the Chief Information Officer. We then visited a total of 40 sites in 30
locations where we interviewed users and physically inspected their wireless handheld devices
(see Exhibit A for a list of the locations we visited).

We ascertained whether users had been advised about the acceptable uses of the device, and that
the devices had been properly configured to safeguard against network intrusion, data loss,
malware, and viruses. Additionally, we wanted to ensure the Department and agencies had
established policies and procedures that properly implement NIST guidelines and best practices
for smartphone usage and deployment.

We designed audit tests to support our audit methodology, and ultimately, our audit objective.
Specifically, we:

   ·   devised tests to inspect smartphone server configuration settings that we then deployed to
       the individual devices.
   ·   inspected Department and agency policies and procedures to ensure regulatory guidance
       had been implemented.
   ·   scanned all Department Blackberry Enterprise Servers for known vulnerabilities.
   ·   analyzed the effectiveness of the TMACOs’ role, including analysis of cellular phone
       bills for inefficiencies and evidence of abuse.
   ·   conducted interviews with various USDA personnel to gather information pertaining to
       the audit.

Additionally, our team developed standardized checklists and physically tested devices to ensure
they were configured according to policy and regulatory guidelines, and were being properly
utilized. Our team created a non-statistical sample of device phone numbers to test at each
agency location; however, the actual testing was based on user and device availability during our
site visit. After identifying a smartphone user at the agency location, we interviewed the user
and inspected the user’s device. The responses to each checklist question were documented and
subsequently compiled into a summary spreadsheet by agency.




Audit Report 50501-01-IT                                                                   12
As a basis for the audit findings, we compared the results of the audit tests against Departmental,
agency, and NIST guidance. Some of the guidance used during the course of the audit included:

   ·   NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
       Systems, December 2007.
   ·   NIST SP 800-124, Guidelines on Cell Phone and PDA Security, October 2008.
   ·   DR 3505-002, Wireless Networking Security Policy, August 11, 2009.
   ·   DR 3300-001, Telecommunications and Internet Services and Use, March 23, 1999.
   ·   Departmental Manual 3550-003, Chapter 10, Part 3: Portable Electronic Devices and
       Wireless Technology, February 8, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards required we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




Audit Report 50501-01-IT                                                                     13
Abbreviations

ARS          Agricultural Research Service

DR           Departmental Regulation

DM           Departmental Manual

GSA          General Services Administration

NFC          National Finance Center

NIST         National Institute of Standards and Technology

OCIO         Office of the Chief Information Officer

OIG          Office of Inspector General

OMB          Office of Management and Budget

PDA          Personal Digital Assistants

SP           Special Publication

TMACO        Telecommunication Mission Area Control Officer

USDA         United States Department of Agriculture




Audit Report 50501-01-IT                                      14
Exhibit A: Testing Locations
The following locations were visited by OIG during the course of the audit.

   ·   Phoenix, Arizona
   ·   Tucson, Arizona
   ·   Denver, Colorado
   ·   Fort Collins, Colorado
   ·   Dover, Delaware
   ·   Washington, District of Columbia
   ·   Fort Pierce, Florida
   ·   Chicago, Illinois
   ·   Lombard, Illinois
   ·   Ames, Iowa
   ·   Des Moines, Iowa
   ·   Manhattan, Kansas
   ·   Topeka, Kansas
   ·   Annapolis, Maryland
   ·   Beltsville, Maryland
   ·   Columbia, Missouri
   ·   Jefferson City, Missouri
   ·   Kansas City, Missouri
   ·   Springfield, Missouri
   ·   Albuquerque, New Mexico
   ·   Raleigh, North Carolina
   ·   Research Park, North Carolina
   ·   Corvallis, Oregon
   ·   Eugene, Oregon
   ·   Tangent, Oregon
   ·   Arlington, Virginia
   ·   Rosslyn, Virginia
   ·   Olympia, Washington
   ·   Pullman, Washington
   ·   Spokane, Washington




Audit Report 50501-01-IT                                                      15
Agency’s Response




                           USDA’S



    OFFICE OF CHIEF INFORMATION
OFFICER AND AGRICULTURAL RESEARCH
               SERVICE



             RESPONSE TO AUDIT REPORT




Audit Report 50501-01-IT                16
         •




                        USDA                                                 JUN 1 6 1011
Unit..; 5",• •
Dop.nmon, el
,olQ,l<uI'u,.

01'<0 oI tI1. Cill. ,   TO:               Gil l!. Ibrdcll
In'"",",,,,,,   ~,
                                          Assisl,lIlt Inspeclor Ge ller;,l for Audit
14 00 lodo;II " tIO=                      om.. c of In spector Gene ral
",,",'05\'/
W",hln ~ t on .   DC    FROM :            Christopher L Smith           t/i----       7....     /         ,
20250                                     Chicflnforrnatioll Oniccr                                 -~
                                          Omec of the C hief Intormmion Officer

                        SUBJECT: 	        US!),\ 's M,"'''!:cmcnl ,nld Securily O"~r Wireless Ilandhcld Devices
                                          (A udit 5050 1-1-1'1') DRi\I'T


                        ThJnk you for the opportuni ty to review and pro,-ide COIl lmcnls on the subje'ct      dr~ft
                        3udil report .

                        Finding I; USDA Needs tu Sr"uno          i! §   Wireless   Il'Lllllh ~ ld   Dr "ires

                        Itccommcm.ialiull 1: Develop NmiOTwl In~lil lli C ofSt:lI\tlards ami Tc clmology (NIST)­
                        comp li.ml cuniigLlrali on guides lor all approved wireless handheld dc\'kc and server
                        l)'jlCS. I{cquire agenci e, to dOCll1llC,' t r~" SO!l> for :my d~\' ialions.

                        Offire of Ili e C II id In rornl'llilill OrliCH (OC I0) l~cs l' OIl ~ C
                        OC IO agrees wilb th is reconlmcnd"tion . OC IO ha s drJfled ,\ new Departmental
                        Regil lmion (DR) tilled "Sec ure Co nfi guration /I'I'''l''gC!l1Clll Poli cy" b"s~d on NIST
                        guili:mce. TI,i. DR wi1l 5u!X' r~cde Departmental !ll,m""l (OM) 3520-000 C (lllfigur;ltiun
                        /I'!anagelll~nt . dated. 07i I510-t. 3520·00 I; CM I>olic)' & Rcspon sibil iti cs. d~ted 7117/0-t;
                        3535·000 C2 Cont rolled Access I'rutcctioll - GClleral Infonnatioll , dated 511 1/05: '"U!
                        3535·00 1 USDA's C2 Le\'c l ofTr",!. ,bled 02/\ 7105. Thi s IIC W DR r.:quircs the usc of
                        Federal Go\'cm mcnt issu~~1 (~.g. N IST) s~>cur~ contiguralioll guides for all information
                        (ecl1!l010gy dcvices lI sed in US!),\ and formal doc umentation of all deviati ons. This
                        regulation is cuncn!ly in OCIO rwkw.

                        Addition:l ll y, on May 26. 20 11. the Associate Chief Infom1<lIion Offi cer (AC IO) for Ihe
                        Agric li hu rt: Scc uri ty Opel1l1ions Center (ASOC) is , ued a mClllor;II,dulll 10 al l agency
                        Chie f III fonmll ion Officers ,md In fo rm atio n Systems Security !'ro!:"!!ll M"nagers
                        requiring the li se ofN IST Sec urity Co nti gnwt;OI1 Chec klists.

                        ESlim 'lled Co mpletion Datc: We ;1!\ticip;ltC publicali<)i1 of thc lIew DR by
                        March 3 1. 20 12.
llrco mmrndnlioll 2: Develop :Inti impkrn~nl a process 10 monitor wireless hamlhel<l
<lcvice (lild servcr contigllr:ll;on selling.> to CIISur~ thcy m~CI N IST rcqlli relllcm s.

OCIO l~cs pol1 s c
OCIO agrees with 11,;s rccoIll II H.'ll(ialion. OCIO has drJfied :1 li e'" D,\ llit kd "" USDA
Secure Contigllfaliol1 /I.];]nag~nwnt I'roccdll re~:' This lIl:lnual is ClIlTl,mtl y in O C IO
revlcw .

Estim'llt"{1 CO Ill]lktion D'lle: We all ticipme pllblicmion of the IIC'" D;\1 by
"'Iarch 31. 2012,

Fi I1din~ 2: US I) A ,' \ ccds 10 Beller Coord ilia t\" 11 01\' i r.~ Telel"o rn 11111 II ic"Iiuus
i\I i ~s ion An'" Cu nlrol Officers (Ti\lACOs) '" """gr The! r Age ll eic~' II nml hehl
Wireless Ill'\"kcs

l~ eeul1llm'n dnli o l1   J : Work ",ith tck!;Ol1lI11lIJlie"tion vendors to d~\"clo]l an,1
impkment :1I1 electronic billing prOl':css th"t would al low !;olllwsion to commercially
avai lable soliw:!re so th:ll T.\IACOs can more easi Iy r~view "II bi lis on a momhl y basis.
Once in eicctro n;!; fonn:1I both tlte "geney and Department should develop stamianl
qIlene s for detecting fraud and W:lste ,

oelo I~es l'o n se
OCIO "grces with thi s reeoT11T11~ndation. 0 .\13 300·005. Policies for I'lalming and
/I."anagi ng Wireless T~'Chnologies in USD,\. NO"elnb~r I O. 20 I0, addresses program
requirements for the financi"lm(ln;l!;Cmenl ofwircle5s cOlllmuni!;at;ons equipulcm (11,,1
billin!;. There is a current wireless billings on line proc~5S that was put in pl:!ee ill 2009.
Wireless hill s arc SC3111le<l by the National Finance Center (md placed into a repository
in S1. Louis ami reviewed :md aecess~"{] bytheT ~'IACO·s. In January 20 11. OCIO
started <le\'eloping " replacement for the current oli line process. which will be
aT11Ioulleed vi a memo 10 the agencks as soon :IS the procurement is finali zed. Onee
:""<lnkd the US!),\ Cellular program will provide a centrali zcd I'rogmm Office ",I,ieh
will oversee the USDA Ce llular Service I'!all s allli the ill\'ClltOI)' oversight.

I' ti              ",!in,," t ':      We anticipale award of a Il1'A                             ;111(1   completion by


Ih'commcntinliol14; D~\"el op:l cClltr.lli zcd Departmental systel1lto capture all
pertinent data for all handheld lIedces. snch as user. phone number. make. model.
device oper.lI;ng sys tem, and current soft",:." le\'el.

oelo l~ts l\o l1 se
OCIO panially agree s with thi s f<'Conlnwmiatiou. US DA h:l s a ,lccel1tr; lli zed
procuremcnt prOl':e ss for h:II\\lhcld dC"ices. Agencie s maintainlheir own inventory
infonnmiol1. OC IO is dC"elop;,I!;" l1\elll0r.IIIUll11ltO unify USDA Ccl hliar
procurement. pricin g. irwentory. :I"d management IIII\\er" si ll gle program office within
OC IO. servic ing all USDA agencies and oflkes and the elltcrpr;sc I"Cpresent:!ti\"!; to the
Gener:ll Services ,\dministration and service providers. OCIO will implement :1
solution for T;\ 1ACO' s to usc for ill"elllory mallagement for ;111 agcllcies' wireless
,\Cviees . OC 10 will issue the mCl11or;md"," by J111 )' 201 I •


                                    •, ' 1:<.01 .\1.   ,wr,,,rn   ~I I   \ ' "-'11' 1. '01'1."
E~li rn al~d   Compiction Dat e: We :I111 icipate award and   ~ompl ction   by M:lrch 31, 20 12.

Ih'C() IlIIl1 ~ lIllmioll 5; The Agric ulttm: Rese~rch Scn'ice (A RS) shou ld central ize the 

acquisi tion :I nd securi ty over its wireless hanllildt! lleviees. 


OCI O I~C~ llOlI~C 

OCIO alit! ,\R S agree with thi s rcconlln~l\li'l1 ion. 


Due to the d~celltralized bud gdary process within ARS. the age nc>' plan s to implemellt 

the following proc~"<iures to l11aTwge the act] uisi tion of hamih c1d deviee s w ithin ARS: 

      • 	 S\,TlTdardize al l ,\R S Iwnl!Tcld deviees th at will be identifkd as supported in
          th e USDA Enterprise ~kssaging System:
      • 	 Ulili~c a proc~s s that is rout cd Ihro"gh [he Age"e), T,\ IACO to appro"~
          handheld pu re ltascs:
      • 	 'O,IACO approves pu re has~ ami ,locuTlTcnts sp~cilicitics in a ma n ag~d
          database:
       • 	 Uns upported dev iccs wo uld be s~nt through the T"'IACO as a "wail'er
           process" wilh thc DCp'lrtmcnt h'ldng the final approval: and
       • 	 All handh eld deviees ",iIlIT:lve Dcp"rtrncnt sccuritYJlolieies ,(ppli ed through
           onc of\\\"o processes.

           Sec urity
               o 	 Once con nec ted the Department Enterprisc i\1cssaging System (E)" IS)
                   security policies ~ rc inswlled on h;l nd held dc,·ices.
               o 	 Il,mdheltl devices not connected to Dcpartment Ei\IS \\"il1 be
                   pro" isio ll ed witlt securit y policie s by local IT speci'll ists before being
                   dq ll oyed for usc.

E<lim'lted Completion Qate: I'endi ng       D~partmcllt~1   guidance on wireless techno logies
wi ll be supported in tlT c BI'OS EMS.

OCIO w ill conti nue to keep tlte Office of Insrcc lOr GCllcral abreast of our progress on
these recommendation s. If furth er iTlfonn~tioTl is needed. pkasc COIl1:1ct Shcrry
Li nki ns. OC IO Audit Liaison at 202-720·9293.

cc:
CIt,lrles T. )"1c Clmn. D~pUl>" Clt ieflnfomm tion omcer
Richard Coffee. Act ing /\C IO·CI'I'O
Chr istoplt cr Lo\\"e. ACIO·ASOC
Lel1tlctt;o Eli as. I'rogr:.,m Analyst. OCFO
OWCIl Unangst. Director· IO,\
S IT err), Linkins. OC IO
C>,nhia Sclt wind. OC IO
